n

1C

i

No.

„L L J

Supreme Court, U.S.
FILED
- -

L,

JUL I 3 2521
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

STEPHEN CUMMINGS

-PETITIONER

VS.
JAMES CAMERON, LIGHTSTORM ENTERTAINMENT INC., SONY PICTURES INC.,
PARAMOUNT PICTURES CORP., PARAMOUNT HOME ENTERTAINMENT INC.,
TWENTIETH CENTURY FOX FILM CORP., DOLBY LABORATORIES INC.
-RESPONDENT(S)

ON A PETITION FOR AN (EXTRAORDINARY WRIT)
AND-OR WRIT OF CERTIORARI TO

UNITED STATES DISTRICT COURT, CENTRAL DISTRICT OF CALIFORNIA,
AND-OR UNITED STATES COURT OF APPEALS, 9th CIRCUIT CALIFORNIA

STEPHEN CUMMINGS
PO Box 373,
NEW YORK, NY, 10163
626-354-1834

RECEIVED
JUL 1 6 2021

QUESTIONS PRESENTED

1. That, the lower court (and-or previous appeals court) have decided a legal matter in
error, and in conflict with State and Federal Law.
2. That, (as “defendant”) in the most recent case (USDC Cent. Dist CA, 2:20-cv-04443), -1
have in violation of my Constitutional Rights, and applicable State and Federal Law,
Code, Procedure, - been denied the ability to call witnesses, take depositions, go to trial.
or any other form of discovery.

I am not even being allowed to SPEAK, in my own

defense.
3. That, I have been illegally ordered to (pay some $30,000 in legal fees to the
respondents), and (have been ordered by the court to (remove valid filed UCC-1 liens, or
other liens violations of my Constitutional, rights to freedom from illegal search and
seizure, freedom from harassment (and by the government).
4. That, the court in all actions, has (through just error or bias), has denied me (the right to
seek redress via the court, to right civil wrongs, and to be heard at all on valid claims),
and thusly denied and violated itself, my rights under the _ in violation of FRCP, USC,
Civil Rights Act of 1968 (25 U.S.C. § 1301-1304, U.S. Constitution and (Amendments
1-11), and all applicable State and Federal Law.
5. That, the (United States Court of Appeals), has previously (As per Rule 10 (a) “so far
departed from the accepted and usual course of judicial proceedings, or has sanctioned
such a departure by a lower court, as to call for an exercise of this Court’s supervisory
_power:”)'and-or (As per Rule 10(c), “has decided an important question of federal law
that has not been, but should be, settled by this Court, or has decided an important federal

question in a way that conflicts with relevant decisions of this Court”).
6. That, judicial immunity and-or state or government sovereignty do not extend to the theft
of personal property without just compensation.

(Constitution of the U.S.A, 5th,

Amendment).
7. That, in violation of my (Constitution of the U.S.A, 5 ttl , Amendment rights) against
self-recrimination, I have been compelled to give testimony against myself.
8. That, (As per Rule 11, “this case is of such imperative public importance as to justify
deviation from normal appellate practice and to require immediate determination in this
Court”), in accordance with 28 U.S.C. Sub.Ch. 2101(e). And that, (the USCA 9th Circ.
CA., does not have the jurisdiction or authority to (deal with the problems that legally
exist in these cases/deficiencies involved).

And that, the Supreme Court of the United

States’ Appellate and jurisdictional authority is both appropriate and not only warranted,
but REQUIRED, at this point, -to right a legal wrong(s), and deficiencies legally, which
exist in the underlying decisions/cases out of the USDC courts, or previously sanctioned
by the appeals courts.
9. That, pursuant to 28 U.S.C. Sub.Ch. (1651(a)), this writ is in aid of this Supreme Court of
the United States’ appellate jurisdiction, and that exceptional circumstances warrant the
exercise of this Court’s discretionary powers, and that adequate relief cannot be obtained
in any other form, or from any other Court.
/

10. That, as per Rule 17, this Court’s original jurisdiction is invoked under Article III of the
Constitution of the United States, 28 U.S.C. Sub.Ch. 1251 and U. S. Const., Arndt 11.
11 .That, in violation of my Civil Rights, the court itself has attacked myself and my
reputation fraudulently, whether through honest error or bias or other. In violation of my
rights under Civil Rights Act of 1968 (25 U.S.C. § 1301-1304, U.S. Constitution's Bill
of Rights (Amendments 1-11), and prejudicially to my case and my claims.

12. That the court has Deniad my right to appeal, and-or right of appeal of denial, in a
timely
fashion, in violation of FRCP Rule 4, FRAP Rule 4, FRAP Rule 4(a)5.
13. Ultimately, I request that this Court, (1 - vacate/set aside all USDC Central Dist. Ca
decisions/orders/judgments) whereby I withdraw action filed in Superior Court of the State of
California, (2 - return these matters to the USDC Central Dist. FL, and order that the case goes
forward), and (3 - Order that I be appointed counsel - as I have repeatedly motioned for same
and have stated I am willing to pay said appointed counsel with a (1/3 contingent fee as is
usual).

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES

-

1st Case, USDC (Orlando), 6 17-cv-00908

- 2nd Case, USDC (Orlando), 6 17-cv-01897
(USCA 11th circ. Atlanta#
- 3rd Case, USDC (California). 2:20-cv-08044
(Originally filed in Superior Court State of California,
________________removed by motion to USDC (based on Copyright
causes of action),
4th Case,USDC (California), 2:20-cv-04443

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

10-17

REASONS FOR GRANTING THE WRIT

17-19

CONCLUSION

20

INDEX TO APPENDICES
APPENDIX A

1st Case

USDC (Orlando), 6:17-cv-00908

APPENDIX B

2nd Case

USDC (Orlando), 6:17-cv-01897

APPENDIX C

3rd Case

USDC (California). 2:20-cv-08044

APPENDIX D

4th Case

USDC (California), 2:20-cv-04443

APPENDIX E

Copy of UCC-1 Status printout Off. of Sec. of State, California

APPENDIX F

Partial results of “Google search”
(Key words: Stephen Cummings Titanic )

APPENDIX G

Letter to USCA, 9th Circuit, dated July 7, 2021,

APPENDIX H

Letter to Attorney General of the United States, requesting declaration
this petition/underlying action USDC Middle Dist. Florida (Orlando), is “of
public importance”, is “in the public good”, are brought in good faith.

APPENDIX I

- Copy of this Court’s order(s) dated 3-19-2020, and 4-15-2020, regarding
Covid-19, Copy of my own vaccination card, excerpts from article regarding
allergic reaction from covid-19 vaccine.

TABLES AND AUTHORITIES CITED

CASES

PAGE NUMBER

-Bill Johnson’s Restaurants, Inc. v. NLRB,

11

-BE&K Construction Co. v. National Labor Relations Board

11

-{Lochner v New York, (1905)),

11

{Bi-metallic Investment Co., v State Board ofEqqualization (1915))

11

STATUTES AND RULES
28 U.S.C. Sub.Ch. (1651(a)),
Constitution of the U.S.A, and Amendment(s) 1-10

11

“Due process clause” of the 14th Amendment to the Constitution

11

Civil Rights Act of 1968 (25 U.S.C. § 1301-1304
FRCP Rule 4, FRAP Rule 4, FRAP Rule 4(a)5

12

Constitution of the U.S.A, 5th, Amendment

12

FRCP, USC, Civil Rights Act of 1968 (25 U.S.C. § 1301-1304,

13,14,15

U.S. Constitution and (Amendments 1-11),

OTHER
Florida Statute Title XL, Chapter 713.

12

Uniform Commercial Code, and U.S. Code

12

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR AN (EXTRAORDINARY WRIT)
AND-OR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari and-or extraordinary writ issue to review
the judgment (s) shown below.
OPINION BELOW
For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
petition and is :
- reported at

to the

; or

- has been designated for publication but is not yet reported; or
x

-

is unpublished.

The opinion of the United States district court appears at Appendix_A - D to the petition and is :
- reported at

or

- has been designated for publication but is not yet reported; or
x

-

is unpublished, (to the best knowledge of petitioner)

For cases from state courts:
No State Court has ruled on the merits. My action against the respondents in the
Superior Court of the State of California, was REMOVED to the (USDC, Central Dist. CA,
l

Western Div.), via motion made by the defendants/respondents/((and in action of their own
againsfmyseTf) plaintiffs)'
____ - reported at

; or

____ - has been designated for publication but is not yet reported; or
is unpublished.

x

JURISDICTION
For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was (USCA 9th circuit pending), USDC Decisions-orders-judgements July 2021 .
x

No petition for rehearing was timely filed in my case.

A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
, and a copy of the order denying
rehearing appears at Appendix
and including

An extension of time to file the petition for a writ of certiorari was granted to
(date) on
(date) in Application

No.
The jurisdiction of this Court is invoked under 28 U.S.C. Sub.Ch. 1254(1).
For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______________
A timely petition for rehearing was denied by the United States Court
of Appeals on the following date:
, and a copy of the order denying
rehearing appears at Appendix_
and including

An extension of time to file the petition for a writ of certiorari was granted to
___________(date) on
(date) in Application
2

No.

A
The jurisdiction of this Court is invoked under 28 U.S.C. SubCh 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

- 28 U.S.C. Sub.Ch. (1651(a)), 28 U.S.C. SubCh 1257(a), 28 U.S.C. Sub.Ch. 1254(1).
-

Constitution of the U. S. A, and Amendment(s) 1-10

- Civil Rights Act of 1968 (25 U.S.C. § 1301-1304)
- FRCP Rule 4, FRAP Rule 4, FRAP Rule 4(a)5
- “Due process clause” of the 14 th Amendment to the Constitution

3

STATEMENT OF THE CASE
Overview
1. This petition is brought to review (the decisions - orders -judgements) in (USDC Central
Dist. California, USDC (2:20-cv-08044) and (2:20-cv-0443), AND (those prior determinations
made in USDC Middle Dist. Florida (Orlando), 6:17-cv-01897, and Appeal of same in USCA
11th Circ. Atlanta, and prior USDC Middle Dist. Florida (Orlando), USDC (Orlando), 6:17-cv00908.
2. These matters are currently pending in USCA 9th Circuit California as: Appeal Docket
No. 21-55632, appeal of USDC (2:20-cv-08044) and Appeal Docket No. 21-55612, appeal of
USDC (2:20-cv-0443).

Note also: The 3rd Case, USDC Central Dist. California, USDC (2:20-

cv-08044), - began in Superior Court of the State of California, and was removed by (motion of
the defendants) to USDC, Central Dist. CA.
3. I hereby request that this Supreme Court of the United States, review all Docket sheet
ratfies~fdrall four USDC cases, -shown as the front of APPENDIX"A“D, -and review HOW
4

these matters have been handled throughout.
Denial of due-process,
Denial of right to seek redress via the Court,
4.

That, (as “defendant”) in the most recent case (USDC Cent. Dist CA, 2:20-cv-04443), -1

have in violation of my Constitutional Rights, and applicable State and Federal Law, Code,
Procedure, - been denied the ability to call witnesses, take depositions, go to trial, or any other
form of discovery. This while the court SLANDERS / assault’s me, with liable. See
(APPENDIX D - Docket of(USDC (California), 2:20-cv-04443), -EVERY WORD Tve said
has been “stricken from the record”.
defense.

I am not even being allowed to SPEAK, in my own

All in violation of Constitution of the U.S.A, 4th, 5th, 6th”7th”14th Amendment, and

specifically the “Due process clause” of the 14 th Amendment to the Constitution.
I quote various articles to do with due process, and the right to seek redress via the court:
“In 1983, the Supreme Court’s opinion in Bill Johnson’s Restaurants, Inc. v. NLRB
set out the principle that “the right of access to the courts is an aspect of the First
Amendment right to petition the Government for redress of grievances.” In a June 2002
decision, BE&K Construction Co. v. National Labor Relations Board, the high court,
though not ruling on First Amendment grounds, nevertheless noted that it had long
viewed the right to sue in court as a form of petition. “We have recognized this right to
petition as one of the most precious of the liberties safeguarded by the Bill of Rights,”
Justice Sandra Day O’Connor wrote for the Court, “and have explained that the right is
implied by the very idea of a government, republican in form.””.
And,
“(Constitution of the U.S.A, 4th, 5th, 6th”7th”14th Amendment, (4th Amendment,
(protections against unreasonable search and seizure)), (5th Amendment, requires that
“due process of law” be part of any proceeding that denies a citizen “life, liberty or
property” and requires the government to compensate citizens when it takes private
property for public use. “Amendment V No person shall be held to answer for a capital,
-or otherwise infamous crime, unless on a presentment or indictment.of.a.grand________
5

nor shall be compelled in any criminal case to be a witness against himself,
jury,
nor be deprived of life, liberty, or property, without due process of law; nor shall private
property be taken for public use, without just compensation.”.)”,
And
Cornell Law School : (Lochner v New York, (1905)), “Supreme Court found
unconstitutional, a New York law regulating the working hours of bakers, ruling that the
public benefit of the law was not enough to justify the substantive right of the bakers to
work under their own terms.”
And
Cornell Law School: “(.Bi-metallic Investment Co., v State Board ofEqqualization
(1915)), the Supreme Court held that only politics (the citizen’s “power, immediate or
remote, over those who make the rule”) controlled the State’s action setting the level of
taxes but if the dispute was about a taxpayer’s individual liability, not a general question,
the taxpayer had a right to some kind of hearing (“the right to support his allegations by
arguments however brief and , if need be, by proof however informal”). This left the
State a lot of room to say what procedures it would provide, but it did not permit it to
deny them altogether.
9999

Required to give testimony against myself
5.

That, in violation of my (Constitution of the U.S.A, 5th, Amendment rights) against

self-recrimination, I have been compelled to give testimony against myself, -due SOLELY to
the fraudulent activities of the respondents - this - (13 years after the fact of the original
creation and release of the film), and based on those fraudulent assertions, -errant decisions by
the court.
Denial of right to appeal, and-or right of appeal of denial
6. That I have been denied the right to appeal and or right to appeal denial of right to appeal, in
violation of FRCP Rule 4, FRAP Rule 4, FRAP Rule 4(a)5, See Appendix B, C, and D.
Dockets and decisions.
6

Illegal imposition of debt,
Illegal denial of State and Federal Law / UCC
7. That, as of the date of this document, I have been illegally ordered to (pay some $30,000 in
legal fees to the respondents), and (have been ordered by the court to (remove valid filed UCC1 liens, or other liens that neither myself, nor the State of California, nor the State of Florida,
have vet seen fit to deny / withdraw /remove). My UCC-1 Liens are in compliance with
Uniform Commercial Code, -my Mechanic Lien /other are in compliance with Florida Statute
Title XL, Chapter 713.

Mechanic’s/other Lien law).

- Constituting violations of my

Constitutional, rights to freedom from illegal search and seizure, freedom from
harassment (and by the government).

Fraud / theft / harassment under color of law, Judicial error or bias, vexatious
litigants, Theft ofprivate property without just compensation in violation of
Constitutional, State and Federal law, slander and defamation of my character and
claims
8. That, the court in all actions, has (through just error or bias), has denied me (the right to seek
redress via the court, to right civil wrongs, and to be heard at all on valid claims), and thusly
denied and violated itself, my rights under the Constitution of the U.S.A, and all
Amendments), and all applicable State and Federal Law. I have NEVER been allowed in any
action, to call witnesses, supply evidence, take depositions, proceed to trial, or any other form
of discovery, in violation of FRCP, USC, Civil Rights Act of 1968 (25 U.S.C. $ 1301-1304,
U.S. Constitution and (Amendments 1-11), and all applicable State and Federal Law.
9. That, judicial immunity and-or state or government sovereignty do not extend To”tKeTheffof
7

personal property without just compensation.

•

tVi

(Constitution of the U.S.A, 5 , Amendment).

10. That, in violation of my Civil Rights, the court itself has attacked myself and my reputation
fraudulently, whether through honest error or bias or other. In violation of my rights under
Civil Rights Act of 1968 (25 U.S.C. § 1301-1304, US. Constitution's Bill of Rights
(Amendments 1-11), and prejudicially to my case and my claims. That the lower USDC
courts have ruled IN ERROR, due to, largely the fraudulent assertions put forth by the adverse
parties, - and that the lower courts have IN ERROR relied ON, those fraudulent defenses and
assertions in making mistaken determinations, and-or themselves making, false assertions
within their decisions.
11. That, the errors in the lower court decisions are due largely/possibly totally, tofraudulent
defenses and fraudulent assertions (put forth in all pleadings/all actions) by the respondents.
And that, - the respondents have in fact, defrauded the / all Court’s involved, this plaintiff, the
general public. They have have put forth fraudulent defenses and assertions, have and have
attempted to commit fraud under the color of law. They are VEXATIOUS litigants, as per
((Central District Local Rule 83-8.1, 8.4) and (Cal. Code Civ. P., SubCh 391.391.8 (vexatious
litigants statute)).
12.That, within ALL same underlying actions / court(s) the respondents have, and have
attempted to, - use the court(s) themselves as a device for violations by the respondents of
(California Penal Code 484 (theft) and (fraud)), (California Penal Code 240, and CACI 1301,
(assault by liable)), (California Penal Code 646.9(a), 422(a) - (harassment)), ( California Civil
Code Sect. 44, 45, 46 - (Defamation
(liable and slander)), and (New York Penal Code, S 190.65 Scheme to
defraud in the first degree), and (Florida Statutes, Title XLVl, Ch. 812, and~(81270T4,- THeftT7
8

“812.014).

That in fact, in EVERY SINGLE PLEADING of the respondents, in EVERY

ACTION, in ALL courts thus far, the respondents have (Assaulted me with liable -with
seemingly impunity from the court), with words like “dillusional”, “frivolous”, etc. .

This

despite their legal obligation -to bring forth any relevant information in their possession
regarding these matters.
13.That, in violation of my Civil Rights, the court itself has attacked myself and my
reputation fraudulently, whether through honest error or bias or other. With words like
“frivolous” In violation of my rights under Civil Rights Act of 1968 (25 U.S.C. § 1301-1304,
U.S. Constitution's Bill of Rights (Amendments 1-11). And has acted in a way extremely
prejudicial to myself, my case, and my (valid claims as per state and federal law).
14. That, the Court, (due primarily to the fraudulent defenses and assertions made by the
respondents, have relied on those fraudulent assertions, and have thus ruled in error), denying
my right to due process under the law. In violation of my rights under Civil Rights Act of 1968
(25 U.S.C. $ 1301-1304, U.S. Constitution's Bill of Rights (Amendments 1-11).
15.That, the combined effect of the (respondents fraudulent activities / the reliance on the
court(s) thus far on those fraudulent activities and assertions / judgments-orders-decisions made
in error by the court) have the combined legal effect of (theft of property by the government
anyone else) without compensation, in violation of my rights under the (Constitution of the
U.S.A, 4th, 5th, 6th”7th’ Amendment(s)).

And that theft and fraud thus far is being carried out

seemingly willing, by the court system, and in violation of my right to not have my property
taken without just compensation. Constitution of the U.S.A, 5th, Amendment.
Would (Menendez have made decision(s) he did, if the defendants had not lied?.
16.(Please understand,

I don’t approach the court “begging for mercy” as a pro-se
9

’’I’M BEING

plaintiff. I approach this Court saying:
DEFRAUDED

HELP!!!!! !!!

somebody call a cop!!Whether by (fraud from the

respondents) and-or (non-iniquitous judicial error) and-or by (judicial bias),

”IM BEING

DEFRAUDED, ....YOU are being defrauded... .we are ALL being defrauded ”).
17. There is another matter regarding copyright which is not even being addressed. I here
inform the court of an interesting “tid-bit” if you will from the world of film-making. I just
learned something/stumbled across it looking for something else, recently, -and I was not aware
of this particular situation, -I imagine that you Justices are not either, -not exactly something
either of us deal with regularly, -that is this:
.....when a film is made, the Director-Studios, share the copyright for the CHARACTER
created in the film, WITH THE actor.

I did not know that. The only problem with that HERE,

-is that (DiCaprio) PLAYED A ROLE, he played an EXISTING PERSON, -he played ME.
So.....legally/contractually, Jim/the studios CANNOT contract with (DiCaprio) to give him
MY OWN personal copyright property of -myself - an existing person.

Do you see?....its

possible Jim/other made some sort of deal they were legally entitled to make.
in a lot of ways like (“The Audey Murphy story”.

My situation is

I don’t know HOW , -that situation was

handled legally, but I may offer a supplemental brief on that / other in future.
Practicality -authority of this Court’s intervention or authorities at this time
18.That, the (United States Court of Appeals(USCA 11th Circ. Atlanta)/other), has
previously (As per Rule 10 (a) “so far departed from the accepted and usual course of judicial
proceedings, or has sanctioned such a departure by a lower court, as to call for an exercise of
this Court’s supervisory power:”) and-or (As perRuleJO.(c),-L‘has.decided.an.important_______
10

question of federal law that has not been, but should be, settled by this Court, or has decided an
important federal question in a way that conflicts with relevant decisions of this Court”). And
that, (As per Rule 11, “this case is of such imperative public importance as to justify deviation
from normal appellate practice and to require immediate determination in this Court”), in
accordance with 28 U.S.C. Sub.Ch. 2101(e).
19.That, (the USCA 9th Circ. CA., does not have the jurisdiction or authority to (deal with
the problems that legally exist in these cases/deficiencies involved), that, legal deficiencies exist
within (both the decisions made at the lower USDC Cent. Dist. CA., court level, both in these
underlying cases and in other related cases). Appeal of (Wright decisions) in the USCA 9th
Circ., does not solve the issue of (mistaken or errored judgments made based on fraudulent
defenses or fraudulent assertions of the Respondents. Warranting exercise of this Court’s
discretionary and-or appellate authority.
20.This petitioners actions thus far, have (never actually,.....totally and
completely.....properly) dismissed except WITHOUT prejudice.

(I never served the

Summons’ in (2nd Orlando action)), and I never paid the fee for the Appeal in (Atlanta USCA).
The only total and complete, case, which has been actually carried thought properly beginning
to end, was the (1st Orlando case). What hope would I have had of (review/writ of certiorari)
coming out of the USDC in Orlando, -when (Atlanta USCA) denied my appeal - even though
there never was a valid appeal -1 never paid the fee.
21. That, pursuant to 28 U.S.C. Sub.Ch. (1651(a)), this writ is in aid
of this Supreme Court of the United States’ appellate jurisdiction, and that exceptional
circumstances warrant the exercise of this Court’s discretionary powers, and that adequate relief
cannot be obtained in any other form, or from any other Court.

———
li

Requestfor Relief
22. I request that this Court, (1 - vacate/set aside all USDC Central Dist. Ca
decisions/orders/judgments) whereby I withdraw action filed in Superior Court of the State of
California, (2 - return these matters to the USDC Central Dist. FL, and order that the case goes
forward), and (3 - Order that I be appointed counsel - from the pool of pro-bono attorneys
available to the court, -as I have repeatedly in all actions motioned for same and have stated I
am willing to pay said appointed counsel with a (1/3 contingent fee as is usual), and the
respondents are taking advantage illegally of the fact that I am not represented.

REASONS FOR GRANTING THE PETITION
23. That, the (U.S. Court of Appeals), has previously (As per Rule 10 (a) “so far
departed from the accepted and usual course of judicial proceedings, or has sanctioned
such a departure by a lower court, as to call for an exercise of this Court’s supervisory
power:”) and-or (As per Rule 10 (c), “has decided an important question of federal
law that has not been, but should be, settled by this Court, or has decided an important
federal question in a way that conflicts with relevant decisions of this Court”
24.That, as per Rule 17, this Court’s original jurisdiction is invoked under Article III of
the Constitution of the United States, 28 U.S.C. Sub.Ch. 1251 and U. S. Const., Arndt 11.
25.That, (As per Rule 11, “this case is of such imperative public importance as to justify
deviation from normal appellate practice and to require immediate determination in
this Court”), in accordance with 28 U.S.C. Sub.Ch. 2101(e).
26.That, pursuant to 28 U.S.C. Sub.Ch. (1651(a)), this writ is in aid of this Supreme Court of
12

the United States’ appellate jurisdiction, and that exceptional circumstances warrant the
exercise of this Court’s discretionary powers, and that adequate relief cannot be obtained in any
other form, or from any other Court.
27.Truly, - VERY RESPECTFULLY, - There’s 3 of you right now on THIS COURT, who
know of me and are aware that I have an association to the film ‘Titanic’, I’d say that number is
probably a lot higher. Yet THIS is what I’m having to listen to out of your USDC Judge’s :
Hon Otis Wright

.. “does not comply with local rules”,

Hon Menendez

’’fails to state claim upon which relief can be based”

.......the “junkyard”..... ’’KITCHEN SINK” excuse for USDC Judge’s when they want to
SHINE YOU ON and write you off without exactly saying why.. ..again, respectfully to all, but I’ve been in your Court’s before
not in compliance)

(i.e.......they NEVER say just exactly HOW it is

Perhaps then you Honorable Justices of THIS Supreme Court of the

United States will tell me:
How is it that MY complaints, are not in compliance,.............when my actions are
VERBATIM based on (Wepner v Stallone, (Superior Court State of New Jersey), and ( USDC,
DISTRICT OF NEW JERSEY, Civil Action No. 03-6166)),

and

(Sandmann v The

Washington Post, (Eastern District of Kentucky , 2:2019cv00019, USDC )),....... ALL of
/

which, travelled through the court systems successfully without ever being called,
“does not comply with local rules”,” frivolous”, “fails to state claim upon which relief can be
based” , “SHOTGUN pleading”.
28. Again, NO DISRESPECT to anybody.....BUT..... James Cameron’s next highest
grossing film (‘Avatar’ 2010) in adjusted dollars, grossed (approx.. 44%) of ‘Titanic’.

Leo

DiCaprio’s next highest grossing film (‘Inception’ 2010) in adjusted dollars, grossed (approx..
13

35%) of ‘Titanic’.

Kate Winslet,.....well,..... let’s just say, she was (literally flipping burgers

in “Liverpool” ...“AYE!”

),

prior to ‘Titanic”..... If you’ll allow me this

slight Bon Mot,.....to say (that my involvement, my words, my ideas, my likeness, my lifestory, my family history, my stories of Dr Ballard, .. ..etc., etc., etc.), -had no significant effect,
is insulting EMBARRASSING, RUDE, legally in error, slanderous and defamatory.
29.One of your own Justices (Hon. Chief Justice Renquist), RIP, said : (as much as I can
verbatim quote him/the ideal he expressed, that.....”He believed that the Court should reflect
the will of the people, in as much as it was possible to do so”...........
"The normal repeat viewing rate for a blockbuster theatrical film is about 5%.
The repeat rate for Titanic was over 20%."
“At one point, Paramount had to send out new prints of the movie
because theaters had literally worn out their reels”.
“Titanic spent more time at # 1 than most movies play in theaters”.
u 9

TITANIC’ STAYED NUMBER ONE AT THE BOX OFFICE FOR 15 WEEKS.
A RECORD WHICH STILL STANDS TODAY” .

If you do a “Google search” right now

( most successful film in history ),

Answer:

‘TITANIC’
.....’Jack Dawson’, and the entire film originated with me.
I’d say “the People” have already spoken. It only remains for the Court, to get in-sync
with its own country and people,

‘Titanic” was release in 1997,1 was 31 years old.

I’m 56

years old. I’d say I’ve waited long enough to be PAID by these “game playing” respondents.

14

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

C(
/

Shyam D. Buxani
/■
Notary Pubfic, State of New York
Registration No. 01BU6144O80
Qualified In New York County
Commission Expires April 24,2022

